<html>
<title> - OVERSIGHT OF PANDEMIC EVICTIONS: ASSESSING ABUSES BY CORPORATE LANDLORDS AND FEDERAL EFFORTS TO KEEP AMERICANS IN THEIR HOMES</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                    OVERSIGHT OF PANDEMIC EVICTIONS:
                     ASSESSING ABUSES BY CORPORATE
                     LANDLORDS AND FEDERAL EFFORTS
                    TO KEEP AMERICANS IN THEIR HOMES

=======================================================================

                                HEARING

                               BEFORE THE

             SELECT SUBCOMMITTEE ON THE CORONAVIRUS CRISIS

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 27, 2021

                               __________

                           Serial No. 117-37

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available at: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                             
                                __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-372 PDF                 WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------                                
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Mike Quigley, Illinois

       Jennifer Gaspar, Select Subcommittee Deputy Staff Director
                      Molly Claflin, Chief Counsel
                         Senam Okpattah, Clerk

                      Contact Number: 202-225-5051

                  Mark Marin, Minority Staff Director

             Select Subcommittee On The Coronavirus Crisis

               James E. Clyburn, South Carolina, Chairman
Maxine Waters, California            Steve Scalise, Louisiana, Ranking 
Carolyn B. Maloney, New York             Minority Member
Nydia M. Velazquez, New York         Jim Jordan, Ohio
Bill Foster, Illinois                Mark E. Green, Tennessee
Jamie Raskin, Maryland               Nicole Malliotakis, New York
Raja Krishnamoorthi, Illinois        Mariannette Miller-Meeks, Iowa
                        
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on July 27, 2021....................................     1

                               Witnesses

Jim Baker, Executive Director, Private Equity Stakeholder Project
Oral Statement...................................................     6
Katrina Chism, Affected Renter, Georgia
Oral Statement...................................................     8
Diane Yentel, President & CEO, National Low Income Housing 
  Coalition (NLIHC)
Oral Statement...................................................    10
Rene Solis, Chief Program Officer, BakerRipley, Houston, TX
Oral Statement...................................................    11
Joel Griffith, Research Fellow, the Heritage Foundation
Oral Statement...................................................    13

Written opening statements and the written statements of the 
  witnesses are available on the U.S. House of Representatives 
  Document Repository at: docs.house.gov.

                           Index of Documents

  * Letter from the National Association of Realtors; submitted 
  by Rep. Miller Meeks.

  * Letter and supporting documents from Pretium; submitted by 
  Rep. Miller Meeks.

Documents are available at: docs.house.gov.

 
                    OVERSIGHT OF PANDEMIC EVICTIONS:
                     ASSESSING ABUSES BY CORPORATE
                     LANDLORDS AND FEDERAL EFFORTS
                    TO KEEP AMERICANS IN THEIR HOMES

                              ----------                              


                         Tuesday, July 27, 2021

                   House of Representatives
                  Committee on Oversight and Reform
              Select Subcommittee on the Coronavirus Crisis
                                                   Washington, D.C.

    The select subcommittee met, pursuant to notice, at 10:40 
a.m., in room 2154, Rayburn House Office Building, Hon. James 
Clyburn (chairman of the subcommittee) presiding.
    Present: Representatives Clyburn, Waters, Velazquez, 
Foster, Krishnamoorthi, Scalise, Jordan, Green, and Miller-
Meeks.
    Mr. Clyburn. [Presiding] Good morning. The House Committee 
will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    I now recognize myself for an opening statement.
    We are here today to discuss an issue of utmost importance: 
ensuring that the coronavirus pandemic, which has already 
resulted in a loss of life for more than 600,000 Americans, 
does not result in the loss of stable homes for millions more. 
As the coronavirus pandemic ravaged the Nation, millions of 
Americans lost their jobs and faced significant challenges 
making ends meet. For these Americans, one of the most pressing 
challenges has been ensuring that the loss of a job does not 
also mean the loss of a roof over their families' heads. Even 
as the American economy continues to recover, millions of 
American families still live in fear of falling behind on their 
rent and being forced from their homes. Adding to this fear are 
the aggressive and unjustified eviction practices by some 
landlords. I am deeply troubled by reports that many large 
corporate landlords have been aggressively and unfairly 
attempting to remove thousands of Americans from their homes 
during this pandemic.
    Court records show that multiple large corporate landlords, 
some of whom control tens of thousands of rental units, have 
moved to evict large numbers of their tenants over the course 
of the pandemic, despite the CDC eviction moratorium and the 
availability of rental assistance funds. One large landlord, 
for example, has filed to evict over 2,000 tenants during the 
pandemic, totaling over a quarter of that company's tenants. 
Evictions by corporate landlords have been particularly 
widespread in minority communities.
    In view of this information, the select subcommittee has 
initiated an investigation into some of the large corporate 
landlords alleged to be engaged in these practices. This 
investigation will seek to find out whether these large 
landlords are refusing to cooperate with rental assistance 
programs and attempting to force families out of their homes 
unfairly and needlessly. Let me be clear. The aggressive 
actions of these large corporate landlords are unacceptable. 
They must stop immediately.
    These evictions are especially unacceptable because they 
are unnecessary. Congress has taken action to ensure that 
renters experiencing hardship can receive financial help to 
stay in their homes. Of course, the ultimate recipient of these 
funds are the landlords to whom rent is paid. To date, Congress 
has appropriated over $46 billion in emergency rental 
assistance, including $21.5 billion from the American Rescue 
Act so that families affected by the pandemic can pay their 
rent and stay in their homes. These funds are being distributed 
through state and local governments who know their communities 
and housing challenges best.
    The Biden-Harris Administration has acted aggressively to 
protect renters from eviction. Taking a whole-of-government 
approach to preventing an eviction crisis, the Administration 
has worked to speed up the distribution of rental assistance 
funds by states and localities, warned large landlords of their 
duty to inform tenants of their rights under the CDC 
moratorium, and urged state courts to divert eviction cases to 
rental assistance programs to keep people in their homes. The 
Biden-Harris Administration has also pushed state and local 
governments to distribute funds effectively, efficiently, and 
equitably.
    While some are still having challenges, several states and 
localities have done an excellent job in distributing rental 
relief funds. In Texas, the city of Houston and Harris County 
have distributed over $137 million in rental relief funds to 
over 36,000 families. Virginia has distributed over $220 
million in assistance funds, aiding nearly 33,000 households. 
And in Kentucky, the Louisville-Jefferson County Rental 
Assistance Program has disbursed over $22 million to aid 4,300 
households. All states and localities should follow these 
successful examples and adopt best practices for distributing 
aid, and landlords must work with tenants and rental assistance 
programs to avoid needless evictions. The distribution of 
assistance nationwide is rapidly increasing. Rental assistance 
funds helped 85,000 households from January to March, 100,000 
in April, 160,000 in May, and 290,000 in June. The distribution 
of funds in June was greater than all previous months combined, 
and I am confident that this progress is continuing.
    When the House returns to session following the August 
district work period, we plan to invite Treasury Secretary 
Janet Yellen to testify on the implementation of this and all 
the essential relief programs established by Congress through 
the American Rescue Plan and previous coronavirus response 
legislation that are being administered by her Department. I 
look forward to that hearing and am hopeful the Secretary's 
schedule will allow her to appear before us. And I know from 
his recent public statements that the ranking member does as 
well.
    It is equally important that the select subcommittee hear 
from today's witnesses, who bring a wealth of knowledge and 
important perspectives on this issue. I look forward to hearing 
from each of them about the challenges we face. As Americans 
continue to get vaccinated and our economy continues to 
improve, we must work together to prevent the pandemic from 
precipitating an eviction crisis. Congress has already taken 
action to ensure that American families are not evicted from 
their homes. We must ensure that the law is followed and the 
rental assistance funds that Congress provided are accessible 
to all who need them.
    I now yield to the ranking member for his opening 
statement.
    Mr. Scalise. Thank you, Mr. Chairman, and I appreciate you 
holding this hearing. I look forward to hearing from our 
witnesses.
    The biggest economic challenge we face right now continues 
to be President Biden's inflation crisis. The cost of housing, 
the cost of gasoline, groceries, cars, basic necessities of 
life have skyrocketed. Rather than addressing the problem and 
proposing solutions, the Biden Administration's answer is, 
don't worry, just keep burning more money and hope that 
inflation will just magically disappear. Mr. Chairman, these 
huge price spikes are not going to magically disappear, 
especially when liberals and socialists continue reckless tax 
and spend policies. The American people know that the massive 
increase in government spending we have seen in these last few 
months is responsible for the rising cost of prices that we pay 
for everyday household items. This, by the way, is a tax on 
hardworking families. And what is President Biden's answer? He 
is pushing for an additional $4 trillion in new taxes and 
spending, exactly the opposite of what America needs right now.
    What America needs at this critical moment is to stay on 
the path toward fully reopening. We cannot slide backward. 
Schools must reopen for in-person learning. The costs our 
children have already paid is too high. Businesses need to 
continue bringing back employees, and the Federal Government 
needs to stop paying people more to stay home than to go back 
to work. The Federal Government needs to stop undermining the 
relationship between landlord and tenant and let that market 
function properly.
    What has allowed us to get back to some normalcy has not 
been government spending. It certainly has not been government-
imposed lockdowns. That is the opposite of normalcy. What has 
gotten us back on the path to opening is getting control of 
this invisible enemy, and America did that by creating, 
producing, and distributing safe and effective vaccines. As 
every member of this subcommittee knows, I as ranking member, 
as well as many of us here, have been advocating for and 
encouraging vaccines for over a year, and we have also 
highlighted the success of Operation Warp Speed at bringing 
multiple vaccines to families in record time. In fact, I called 
out those who talked down the vaccine during last year when you 
saw a number of people from President Biden and now Vice 
President Harris on down who were actually promoting vaccine 
hesitancy. They ought to come back out and admit they shouldn't 
have done it, admit that they were wrong in promoting that. In 
fact, when President Biden took office and created a goal of 
$100,000 million shots in a day, which, by the way, we were 
already on track to administer the day he took office, many of 
us said that the President should be more ambitious. He should 
increase the goal to 200,000 million shots a day. Ultimately, 
President Biden embraced that goal.
    Mr. Chairman, you and I worked together on the vaccine 
hesitancy hearing. We jointly invited witnesses. Our views have 
been clear and consistent. If you want to get vaccinated, it is 
safe, effective, free, and available. But I have also been 
clear that if the goal is to get more people vaccinated, 
shaming people and mandating those vaccinations won't work. 
Censoring the truth won't work either. It only breeds more 
distrust. Let's all work together to get the facts out to 
people, particularly populations that continue to display 
hesitancy. Let's present the evidence but also reassure 
individuals that the decision is theirs. If someone has a 
concern or a question, now is the time to have that 
conversation with their doctor. I believe that strategy will 
ultimately maximize the number of Americans who choose to take 
the vaccine because, after all, this is a medical decision, not 
a political decision.
    According to the Mayo Clinic, 87 percent of Americans over 
the age of 75 have already received at least one dose of 
vaccine. More than 90 percent of individuals aged 65 to 74 have 
received at least one dose. Since vaccinations began, emergency 
room visits related to the virus have declined 77 percent among 
older adults, and of course, we remember at the outbreak of the 
pandemic, that was the population that experienced the largest 
percentage of deaths. Just seniors in nursing homes alone were, 
at one point, responsible for over 40 percent of deaths when 
they represented less than one percent of the population. While 
we are seeing some breakthrough infections--that is, infections 
that occurred after vaccination--those illnesses tend to be 
milder than infections among unvaccinated people. We know no 
vaccine is 100 percent effective, but a very small percentage 
of vaccinated individuals we know will get sick. We have seen 
the anecdotal evidence, but that is not evidence that the 
vaccine does not work.
    The Delta variant is spreading at an alarming rate. I am 
especially now concerned about the new Lambda variant that we 
are seeing coming from South and Central America. The Biden 
Administration must address their self-created border crisis. 
Dr. Fauci actually told this subcommittee that the Biden 
Administration was violating their own CDC guidance at the 
border by failing to test for COVID, and for allowing too many 
people to be crammed into cages, many with COVID, at detention 
facilities on the border, only to then be shipped around the 
country and increase the spread of the virus. Many of us talked 
about this that have gone down and seen the crisis at the 
border. Border Patrol agents will tell you that many coming 
across, No. 1, are not being tested for COVID, but, ultimately, 
as they go into these detention facilities packed together, 
some have COVID, and then they spread it to everybody else. If 
an American citizen today went to Mexico for summer vacation, 
they are not allowed to get on airplane and fly back into 
America without first having a negative COVID test. Yet someone 
can have COVID, be positive, come across our border illegally, 
and be welcomed into the country, and then given a ticket to 
get on a plane or a bus and sent throughout America, which, by 
the way, the Biden Administration won't even tell us where they 
are going, so communities can't even prepare for this outbreak.
    We are running out of time to stop the Lambda variant. In 
fact, the dangerous Lambda variant is spreading widely in 
countries like Peru, and now with President Biden's open border 
crisis, we are seeing many illegals starting to spread COVID's 
dangerous Lambda variant into America. We just saw a few more 
cases pop up in Texas, right along the border where people are 
showing up with the Lambda variant. As we worry about the Delta 
variant, which is dangerous, we should also be worried about 
this new Lambda variant that is coming in. And, again, as Dr. 
Fauci testified in the past, that when President Trump said we 
are going to stop flights from coming in from China at the 
beginning of this virus, it saved American lives. Dr. Fauci 
also said President Trump's decision to stop flights from 
Europe as Europe was getting an outbreak, that saved American 
lives, too. I would call on President Biden to look at the 
numbers of the Lambda variant that are coming in from South 
America, and he should get control of the southern border to 
stop the spread of the Lambda variant into America.
    We should not be backsliding on reopening. We should not be 
flooding the economy with trillions more in government 
spending. We should be scaling back the emergency Federal 
programs. The eviction moratorium, I do realize that that is 
the subject of today's hearing, but this eviction moratorium is 
an actual good example. On September 1, of 2020, the CDC took 
the unprecedented step of issuing a temporary national 
moratorium on evictions for nonpayment of rent under the guise 
of limiting the spread of COVID-19 and protecting low-income 
families who were struggling. But, of course, in the December 
omnibus, Congress appropriated $25 billion for emergency rental 
assistance to eliminate that debt. Congress also added an 
additional $21 billion in a second emergency rental program via 
the American Rescue Plan for a total of $46 billion in 
emergency rental assistance funds to be distributed by the 
Biden Administration. Yet, as of the end of June, the Biden 
Administration pathetically distributed less than 10 percent of 
this money to renters who are in need of assistance. The Biden 
Administration has mismanaged this program, and unfortunately, 
our request to bring in Secretary Yellen today was denied. I am 
glad to hear she will finally be coming weeks later, but we 
need those answers today about why that program is being so 
mismanaged.
    The impact of the eviction moratorium has been most heavily 
felt by mom-and-pop landlords who depend on rental income for 
their livelihood. The extension of the eviction moratorium at 
the same time that, by the way, the government is paying people 
more money not to work than to work, has forced many mom-and-
pop renters to sell their rental property or to actually have 
to move into their own rental property as they are selling 
other properties just to pay their bills. The moratorium is an 
example of why we need to stay focused on reopening America.
    Setting aside for a moment that a series of Federal judges 
have found this moratorium to be unconstitutional, the fact is 
the Administration's response to renters in need has not worked 
and has hurt as many people as it has helped. The Federal 
Government has failed miserably at managing the landlord-tenant 
relationship. Let's focus on getting the facts out to people. 
It is safe to reopen. We have done very well with vaccinating 
vulnerable populations. COVID deaths have decreased 
dramatically, but with these new variants, now is a good time 
for all those who have been hesitant to take a renewed look at 
getting vaccinated.
    With that, Mr. Chairman, I yield back.
    Mr. Clyburn. Thank you very much, Mr. Scalise. I am pleased 
to welcome today's witnesses.
    I would first like to introduce Ms. Katrina Chism, who is 
appearing with us virtually. After Ms. Chism lost her job, her 
landlord, a company owned by a large private equity firm, twice 
tried to force her and her son out of their home. These 
attempted evictions came even though Ms. Chism filed for 
protection under the CDC eviction moratorium and secured offers 
of rental assistance funds. Ms. Chism's difficult experience 
highlights the abusive tactics that some corporate landlords 
used against tenants and makes clear the disruptive impact that 
aggressive evictions have on working families. I would also 
like to welcome Mr. Jim Baker of the Private Equity Stakeholder 
Project, who has done significant research and monitored 
eviction trends by large corporate landlords over the course of 
the pandemic. Next, I welcome Ms. Diane Yentel of the National 
Low Income Housing Coalition, whose organization has studied 
the impact of the pandemic on housing stability and struggling 
Americans. I would also like to welcome Rene Solis, who is 
appearing virtually, of BakerRipley to discuss best practices 
for providing local rental assistance. Ms. Solis has helped to 
administer the city of Houston and Harris County's successful 
rental assistance program. Finally, I want to welcome Mr. Joel 
Griffith, a research fellow for the Institute for Economic 
Freedom and Opportunity at the Heritage Foundation. Thank you 
all for taking the time to testify about this critical issue. I 
look forward to hearing from all of you on how we can continue 
to prevent a pandemic eviction crisis.
    Will the witnesses please rise and raise your right hands?
    Do you swear that the testimony you are about to give is 
the truth, the whole truth, and nothing but the truth, so help 
you God?
    [A chorus of ayes.]
    Mr. Clyburn. You may be seated. Let the record show that 
the witnesses answered in the affirmative.
    Without objection, your written statements will be made 
part of the record.
    We will hear first from Mr. Baker. Mr. Baker, you are 
recognized for five minutes for your opening statement.

  STATEMENT OF JIM BAKER, EXECUTIVE DIRECTOR, PRIVATE EQUITY 
                      STAKEHOLDER PROJECT

    Mr. Baker. Chairman Clyburn, Ranking Member Scalise, 
members of the subcommittee, thank you for the opportunity to 
speak today. My name is Jim Baker with the Private Equity 
Stakeholder Project. We are a nonprofit focused on tracking the 
impacts of private equity firms and similar Wall Street firms 
on ordinary people, including residents of apartments, rental 
homes, and mobile homes.
    Since early in the pandemic, we have tracked eviction 
filings by private equity firms and other large landlords 
across dozens of counties and several states, representing 
about 10 percent of the U.S. population, focusing on corporate 
landlords with 1,000 units of housing or more. In the counties 
we have tracked, corporate landlords have filed to evict at 
least 75,000 residents since the Trump Administration put a 
moratorium in place to halt evictions last September, and we 
know this just scratches the surface. These filings have hit 
renters of color especially hard. For example, corporate 
landlords avowedly filed 16,000 eviction actions in majority-
black DeKalb and Clayton Counties in Georgia since September. 
In 2021, Progress Residential and Front Yard Residential owned 
by private equity firms, Pretium Partners and Ares Management, 
have filed to evict residents in DeKalb and Clayton counties at 
more than seven times the rate they have residents in majority 
white counties in Florida. In many of the counties we tracked, 
corporate landlords have consistently accounted for the 
majority of all filings.
    In May, corporate landlords accounted for 74 percent of 
eviction filings in DeKalb County, Georgia, 62 percent in 
Maricopa County, Arizona, 53 percent of filings in Hillsborough 
County, Florida and Harris County, Texas. Since last September, 
some of the world's largest asset managers that manage 
trillions of dollars have filed to evict residents, including 
Morgan Stanley/Eaton Vance, Greystar Real Estate Partners, Ares 
Management, the Carlyle Group, Starwood Capital, PGIM, Nuveen/
TIAA-CREF, and CBRE.
    While many renters have faced dramatic hardships during the 
pandemic, many corporate landlords have done extremely well and 
are growing and buying more housing. Private equity firm 
Pretium Partners, which owns rental home companies Progress 
Residential and Front Yard Residential, together they have 
filed at least 1,700 eviction actions since last September. 
Pretium is run by Don Mullen, a former Goldman Sachs banker, 
who made a fortune during the 2008 global financial crisis 
betting against the mortgage market, getting rich as millions 
of homeowners lost their homes to foreclosure. In April 2021, 
as this company was filing evictions, Mr. Mullen purchased a 
$25 million mansion in Miami Beach.
    Publicly traded investment trust, Invitation Homes, the 
largest donor of rental homes in the U.S., has filed more than 
880 eviction actions since last September, and has sought to 
challenge the CDC hardship declarations of several residents. 
Its stock price has increased by more than 44 percent over the 
last year. Canadian-owned apartment company, Ventron 
Management, has filed to evict almost 30 percent of its 
residents since April 2020. Some large landlords continue to 
file, in advance, eviction cases against residents rather than 
working with them to access the almost $50 billion in rental 
assistance that Congress made available to prevent evictions 
and enable residents to pay back rent and stay in their homes.
    Front Yard Residential, for example, filed to evict 133 
residents in the first eight days of January, just days after 
Congress made rental assistance available. Reuters reported how 
Invitation Homes refused to accept $4,000 in county program 
funds from Marvia Robertson, a bus driver in Florida, who the 
company evicted in March. Invitation Homes told Robinson that 
it was not participating in the program due to landlord 
restrictions. Some large landlords have taken a different path. 
We noticed just nine eviction filings by publicly traded 
single-family rental landlord, American Homes, for rent between 
September 2020 and March 2021. Private equity firm, Oaktree 
Capital, substantially reduced its eviction filings in Nevada 
and Arizona earlier this year.
    Eviction is not a foregone conclusion, but a decision that 
landlords, even large corporate landlords, make. We applaud the 
subcommittee for initiating investigations into multiple 
corporate landlords that have each filed hundreds of eviction 
actions, especially since these actions may displace thousands 
of residents and will remain on residents' records for years 
and could impact their access to housing into the future. An 
organization violating the CDC eviction moratorium may be 
subject to a fine of up to $200,000 per violation. The 
subcommittee should recommend action by the U.S. Department of 
Justice to seek penalties from landlords that have violated the 
eviction moratorium. In addition, the subcommittee should 
specifically assess whether any landlords violated residents' 
civil rights by disproportionally filing to evict black renters 
or other renters of color.
    As we enter a critical new phase of the crisis facing 
renters, it is important that we remain vigilant about 
corporate landlords' evictions of residents and the growing 
role of these companies in U.S. housing. Thank you.
    Mr. Clyburn. Thank you, Mr. Baker. We will now hear from 
Ms. Chism. Ms. Chism, you are now recognized for your five-
minute statement.

      STATEMENT OF KATRINA CHISM, AFFECTED RENTER, GEORGIA

    Ms. Chism. Good morning, Chairman Clyburn and members of 
the subcommittee. My name is Katrina Chism, and I am speaking 
today about my experiences renting from a company called 
HavenBrook Homes when I applied for rental assistance to avoid 
eviction.
    I moved into the home in DeKalb County, Georgia in the 
spring of 2018. It was eventually purchased by HavenBrook 
Homes. The rent crept up each year I lived there, making my 
budget tighter and tighter. The home was not in the greatest 
condition, but it was livable. HavenBrook Homes was always slow 
to fix things in the home, but quick to collect the rent. 
Although I occasionally had to pay rent late when money was 
tight, I never had an eviction filing until the pandemic. In 
August 2020, I lost my customer service job to due to the 
pandemic. I was hired by the Urban League of Greater Atlanta in 
September, but the month in between jobs led me to fall behind 
in my rent. I filled out and gave my landlord a copy of the CDC 
declaration, knowing it was set to expire in December 2020. I 
found a local nonprofit agency willing to assist me with my 
rent, but my landlord was uncooperative and I lost the rental 
assistance. In January, HavenBrook Homes served me with my 
first eviction. Ironically, once that happened and the CDC 
order was extended, I was finally able to speak with my leasing 
agent. I got into a payment arrangement, caught up on the rent, 
and HavenBrook dismissed the eviction against me.
    In March 2021, my job with the Urban League was eliminated. 
I applied for unemployment benefits right away, and I was 
actively job hunting. I was eventually approved for 
unemployment, but I didn't get the money for 2-and-a-half 
months. While waiting, I fell behind on all of my bills. I even 
got a gas disconnection notice at one point. On March the 4th, 
when I was just one month behind on my rent, HavenBrook Homes 
filed a second eviction against me. I applied for rental 
assistance on February 12, 2021, the very day the Tenant-
Landlord Assistance Coalition in DeKalb County began accepting 
applications. I was approved, and Atlanta Legal Aid began 
trying to negotiate a resolution with my landlord using the 
rental assistance. Under DeKalb County's rental assistance 
guidelines, I could get half of my balance covered. Around mid-
April, I learned my landlord had rejected the proposal 
outright. HavenBrook didn't even come back with a counteroffer 
to tell me how I could save my home. At the same time, my 
landlord gave me a notice that they would not be renewing my 
lease when it expired in mid-May. I didn't understand why. 
Before the pandemic, I had always paid or caught up on my rent. 
My family and I had lived there several years with no issue.
    HavenBrook then made me an offer. If I moved out 
immediately, even before my lease was up and before the CDC 
order expired, they would forgive my rent balance. I felt 
pressured because my leasing agent told me I could be 
immediately evicted after my lease expired, that the CDC order 
would not apply to me. If I had to leave anyway, I wanted to 
walk away without the debt, but I couldn't find a place to move 
my family that quickly. HavenBrook made it clear they wanted me 
out instead of accepting the rental assistance.
    The fear of homelessness became a reality for me. I was 
very concerned that my son and I would have nowhere to go but 
to a shelter. I was concerned about our health, and I was 
concerned about my son's school. I have always made sure my 
children feel safe and secure in their home. I never had to 
face this type of stress before, and I had no idea what I was 
going to be able to do with little to no income and no home. In 
May, I moved to another county further outside of Atlanta where 
I felt forced into a much, much more expensive lease. I used 
all I had to pay for moving expenses. I was eventually approved 
through DeKalb County for two months of rental assistance at my 
new home, but that assistance has not come yet.
    I felt voiceless up against such a large corporation like 
HavenBrook. I felt expendable, and they showed me that I was. I 
was not given any consideration as a long-term tenant with no 
evictions on my record. I felt as if I had broken the law 
somehow while we were in the middle of a pandemic. There was no 
concern for my life or my son's life as they focused on their 
profit margin. I now have to get a second job and my 16-year-
old son has to start working to contribute to the vast increase 
in my monthly expenses. My son had to switch schools and now 
has to start over. Hopefully he can thrive, but I worry about 
the long-term impact this will have on him.
    Thank you for hearing my story, and I am happy to answer 
any questions that you have.
    Mr. Clyburn. Thank you very much, Ms. Chism. We will now 
hear from Ms. Yentel. Ms. Yentel, you are now recognized for 
five minutes.

  STATEMENT OF DIANE YENTEL, PRESIDENT AND CEO, NATIONAL LOW 
                INCOME HOUSING COALITION (NLIHC)

    Ms. Yentel. Thank you. Chairman Clyburn, Ranking Member 
Scalise, and members of the subcommittee, thank you for the 
opportunity to testify today.
    The Federal eviction moratorium, an essential lifeline that 
has kept millions of renters housed during the pandemic, is set 
to expire this weekend. When it does, the six-and-a-half 
million renter households who remain behind on rent will be at 
heightened risk of losing their homes. An estimated 80 percent 
of those families live in communities where the Delta variant 
of COVID-19 is surging, and emergency rental assistance 
available to pay rent arrears and keep tenants stably housed 
has yet to reach the vast majority of renters in need. Having 
millions of families lose their homes would be tragic and 
consequential at any time. It would be especially so as COVID 
surges and with abundant resources to pay the rent that may not 
reach them in time. This urgent situation demands immediate 
action by policymakers and stakeholders at all levels.
    When Congress and the Administration extended the CDC 
eviction moratorium and Congress provided $46-and-a-half 
billion for emergency rental assistance, state and local 
governments got to work to create new programs and distribute 
aid to renters and landlords, a significant and time-consuming 
undertaking during a global pandemic. But for a variety of 
reasons laid out in my written testimony, the funds are getting 
out much too slowly in states and cities, especially as the 
expiration of the moratorium nears. Nearly half of all states 
and more than 100 cities have spent less than five percent of 
their total ERA allocations. Fifteen states had spent less than 
two percent of their funds through June. Some states and cities 
are successfully ramping up their programs and getting the 
money quickly to those who need it, but many more need to 
dramatically improve and expedite their efforts. At this time, 
even if they do, they can't reach all the six-and-a-half 
million families in need before the moratorium expires this 
week.
    States and cities, renters, families need more time. The 
Biden Administration or Congress must extend a Federal eviction 
moratorium. If Federal court cases make a broad extension 
impossible, they should consider and implement all possible 
alternatives. The newly surging Delta variant, low vaccination 
rates in communities with high eviction filings, and the slow 
rate of distributing ERA make the necessity of an extension 
abundantly clear. In turn, states and cities must improve and 
expedite getting assistance to the tenants who need it to stay 
housed. Our research shows that successful ERA programs are 
visible, accessible, and preventive of evictions and housing 
instability.
    All program administrators should do robust and equitable 
outreach to marginalized and impacted communities, have simple 
applications, use self-attestation for eligibility wherever 
possible, provide direct-to-tenant assistance when landlords 
refuse to participate, and be willing to learn and improve as 
programs and needs evolve. And the Biden Administration should 
continue as they have been to aggressively urge, empower, and 
push states and cities to do more and better. For the longer 
term, Congress must repair the gaping holes in our social 
safety net that brought us again and again to the brink of an 
eviction tsunami during a global health emergency.
    Congress should advance Chairwoman Waters' critical 
legislation in an infrastructure spending bill. This 
legislation would, one, expand rental assistance to make it 
universally available to all eligible households in need. 
Having rental assistance fully funded and available would help 
the country to avoid these eviction crises in the future. And 
two, to increase the supply of homes for the lowest income 
people by preserving public housing and expanding the National 
Housing Trust Fund. In addition, Congress should create a 
permanent emergency rental assistance program to keep families 
stabilized during a crisis and lessen ongoing evictions and 
their long-term harm with robust renter actions, like right to 
counsel, expunging eviction records, protections against 
source-of-income discrimination, and more. With six-and-a-half 
families at risk of losing their homes during an ongoing 
pandemic, policymakers and stakeholders at all levels must do 
more to improve programs, extend and increase renter 
protections, and invest in long-term solutions to make homes 
affordable to the lowest-income people.
    Thank you again for the opportunity to testify today.
    Mr. Clyburn. Thank you very much, Ms. Yentel. We will now 
hear from Mr. Solis. You are now recognized for five minutes.

 STATEMENT OF RENE SOLIS, CHIEF PROGRAM OFFICER, BAKERRIPLEY, 
                         HOUSTON, TEXAS

    Mr. Solis. Mr. Chairman, thank you for inviting me to speak 
with you and with the committee today. My name is Rene Solis, 
and I am the chief program officer at BakerRipley. BakerRipley 
is one of the largest community development nonprofits in the 
state of Texas. We are proud to serve the city of Houston, 
Harris County, and other regions across the great state of 
Texas. We serve over half a million of our neighbors every 
year, and this morning I would like to share with you our 
experience as an administrator of the COVID-19 rental 
assistance funds. But first, let me start by thanking you and 
all of our congressional leaders for providing the much-needed 
rental assistance funding to our fellow Americans.
    Now I would like to share our initial leadership story. In 
early 2020, the COVID-19 pandemic had been spreading throughout 
our region, impacting our economy and impacting the livelihood 
of our neighbors. Amid that uncertainty, leaders from across 
our region sprang into action to identify ways to ease the 
profound financial burdens placed on our communities. It was 
soon thereafter that city of Houston mayor, Sylvester Turner, 
and Harris County judge, Lina Hidalgo, established the Housing 
Stability Task Force, led and overseen by Texas state 
representative, Armando Walle, and retired Shell Oil president 
and CEO, Marvin Odum. The task force included regional leaders 
with a broad base of experience and expertise, housing 
advocates, community-based organizations, landlords, the 
Houston Apartment Association, legal aid agencies, and 
representatives from both the city and the county.
    It was through this collective effort that it was decided 
that the best way forward to effectively serve tenants and 
landlords, we needed to create one program for the entire 
region with a single point of enrollment for both landlords and 
tenants. That decision, in my opinion, was the catalyst that 
paved the way for the ultimate success of the Houston-Harris 
County Emergency Rental Assistance Program.
    Next, let me say a little bit about capacity. BakerRipley 
assumed the initial responsibility of administering the program 
for both the city of Houston and Harris County, but by the end 
of 2020, despite our best efforts, it was clear that the 
economic impact was continuing and that the need for rental 
assistance was ongoing and growing. We knew that any additional 
resources would need to be distributed quickly and effectively. 
And that is when Catholic Charities of Houston-Galveston joined 
our efforts and became the second administrator of the program, 
and helped expand our region's capacity to process 
eligibilities, and applications, and payments. Together, we 
wasted no time in applying the lessons learned from 2020 in 
quickly initiating our 2021 program.
    Next, I would like to mention our outreach efforts because 
it, too, have been critical to our program. We have added nine 
local organizations which serve as navigating agencies. These 
organizations focus on outreach, provide technical assistance 
to tenants and landlords, help identify and address gaps in the 
system, and offer other resources to tenants. This has, again, 
expanded our regional capacity and allowed BakerRipley and 
Catholic Charities to focus on tenant and landlord eligibility 
and payments. Also, in an effort to add capacity and to focus 
some resources on eviction diversion, our partners at the 
Alliance of Houston helped to establish an Eviction Diversion 
Program. This program provides partner advocates and rental 
assistance to tenants who are already in eviction proceedings.
    Also worth mentioning is stakeholder buy-in. In our initial 
strategies, we recognized that both the landlords and the 
tenants play a valuable role in the distribution of rental 
assistance funds. The program has to work for both parties if 
it is going to meet its objective of keeping families in their 
homes. To accomplish this, we had separate outreach 
communication and enrollment plans for the landlords and for 
the tenants, and it all came together because of a great system 
development partner. We partnered with Connective, a non-profit 
system solutions vendor who we had worked with over the years 
through disaster recovery efforts for Harvey and other natural 
disasters that hit our region. Connective helped us build a 
user-friendly intake platform, application processes, and 
technology-enabled coordinated tools, and provided streamlined 
data analysis. And on that note, I would like to point out that 
data is critical. We have a real-time dashboard that shows 
where funds are being distributed throughout the region. We 
knew that for the region to truly prosper, it was imperative 
for everyone to have equitable access to essential resources 
and opportunities.
    In conclusion, we continue to see impressive results. For 
2021, we have distributed over $137 million and helped more 
than 30,000 households stay in their homes, and we are not done 
yet. We are now processing applications for an additional $53 
million of ERA II funding.
    Thank you for inviting us to share our experience with you 
this morning, Mr. Chairman. I am happy to answer any questions 
that you or committee members may have.
    Mr. Clyburn. Thank you very much, Mr. Solis. We will now 
hear from Mr. Griffith. Mr. Griffith, you are now recognized 
for five minutes.

   STATEMENT OF JOEL GRIFFITH, RESEARCH FELLOW, THE HERITAGE 
                    FOUNDATION ROE INSTITUTE

    Mr. Griffith. Thank you, Chairman Clyburn, Ranking Member 
Scalise, and other members of the committee for the opportunity 
to testify today. My name is Joel Griffith. I am a research 
fellow at the Heritage Foundation. The views I express in this 
testimony are my own.
    Last year, for the first time in our Nation's history, 
state and local governments intentionally suppressed and 
criminalized entire swaths of economic activity. In the midst 
of the turmoil, the CDC banned property owners from commencing 
the eviction process in the courts until the end of 2020, and 
the CDC subsequently renewed and extended that ban three times. 
Regardless of the intended beneficiaries, eviction moratoria 
allowed many who are not even impacted financially to live rent 
free. And their complete eradication of evictions coincided 
with just a slight rise in delinquent rent payments of about 
2.2 percentage points in July 2020 versus July 2019. The 
moratorium clearly allowed many who were neither impacted by 
COVID-19 nor experiencing financial hardship to live rent free. 
Now, to the extent that the eviction moratoria did operate as 
an economic aid measure to those who are jobless, thanks to the 
COVID shutdowns, this enabled these local politicians to shirk 
responsibility for shuttering businesses and ruining 
livelihoods, placing the cost squarely on the shoulders of 
property owners.
    These eviction moratoria have produced harmful ripple 
effects. Landlords are going to need to increase rents to 
mitigate the heightened risk of future moratoria and to recoup 
losses from the past. Prospective renters may find themselves 
subject to increased security deposits and tighter credit 
checks. Ultimately, fewer affordable housing units may be 
constructed. Quality of life for other tenants is impacted as 
well as landlords are unable to evict people for disorderly 
conduct, illegal drug use, and criminal activity. Moratoria 
also invoke serious constitutional and legal concerns. They may 
violate the Takings Clause of the Fifth and the Fourteen 
Amendments, along with the Contracts Clause. But without a 
doubt, the CDC's ban on eviction proceedings was unlawful 
because it exceeded its congressional mandate.
    The executive order last year and in this year was 
predicated on the Public Health Services Act, which authorizes 
regulations that are necessary to prevent the introduction, 
transmission, or spread of communicable diseases. Examples of 
congressionally authorized actions for the CDC are listed in 
the Public Health Services Act, and they come nowhere close to 
including eviction moratoria. As legal scholars at the Heritage 
Foundation have explained, ``A basic canon of statutory 
construction is that when a broad, vague term follows a list of 
specifics, that term can only refer to the sorts of things 
listed before it. Nationwide eviction bands are nothing like 
the localized limited congressionally approved actions of 
inspecting, fumigating, or disinfecting specific buildings.''
    Even the language of the CDC order shows that the ban was 
meant as economic relief, not as a tool to protect the public 
from the spread of disease. And truly, if preventing the spread 
of communicable disease were the goal, the CDC would have 
hardly focused on only the small fraction of total annual 
relocations that stem from evictions. Evictions account for 
less than one-tenth the number of total annual relocations. In 
short, both the CDC action itself, the eviction moratorium, and 
the intent to counter the economic impact of COVID violated the 
express will of Congress. But most importantly, even if 
Congress had authorized the CDC to enact this moratorium, such 
authorization itself would have been unconstitutional. Congress 
can only delegate to the executive branch the powers granted to 
it by the Constitution. The Commerce Clause certainly does not 
authorize this. Also, anything the Congress authorizes must be 
necessary and proper for carrying into execution the Congress' 
will. Banning access to state courts, forbidding a state court 
from exercising constitutional jurisdiction would be an abuse 
of Federal power, not a proper use. In fact, it violates the 
First Amendment of the Constitution.
    In conclusion, the CDC moratorium exceeded powers delegated 
to it by Congress. It created economic policy through executive 
fiat. It infringed upon the fundamental constitutional right to 
petition state courts. It eroded private property rights, 
diminished the enforceability of contracts, and infringed upon 
the sovereignty of states by interfering with the jurisdiction 
of their courts. We must be vigilant against attempts to use 
this COVID crisis as an excuse to further erode the rule of 
law, federalism, and fundamental constitutional rights. 
Defending one's property rights is neither aggressive nor 
unfair. What is aggressive and unfair, and unconstitutional and 
lawful is the CDC criminalizing access to the courts and 
forcing property owners to relinquish their rights. Thank you.
    Mr. Clyburn. Thank you, Mr. Griffith. Now, each member will 
have five minutes for questions. The chair recognizes himself 
for five minutes.
    The first question goes to Mr. Solis. I am particularly 
interested in the outreach part of your testimony, and I 
suspect from your projection as to where you plan to go in the 
future. Based upon your past experiences, will you share with 
us some of the hard-to-reach people that you have experienced, 
and maybe what you are planning to do going forward? Hopefully 
it would be helpful to the rest of us as to what we need to 
plan for.
    Mr. Solis. Yes, absolutely. Thank you, Mr. Chairman. So 
first, I would like to mention that our outreach efforts have 
been very critical to the success of our program. One of the 
things we did was we recognized, one, that the need is great, 
but two, that there is sometimes some distrust, or 
accessibility issues, or other barriers for vulnerable 
populations. So, in an effort to address those concerns, we 
have added to the Houston-Harris County Emergency Rental 
Assistance Program nine local organizations who partner with us 
as service navigators. These organizations do focus on 
outreach. They provide technical assistance to tenants and 
landlords. They help identify and address gaps in the system, 
and they offer other resources to tenants. For us, this has 
been very helpful because it has expanded our regional capacity 
and allowed BakerRipley and Catholic Charities to stay focused 
on tenant and landlord eligibility and payments.
    Our approach from the initial steps, and which continue to 
date, has been a holistic approach. We seek to help our 
neighbors get the help they need through our relationships and 
with the navigating agencies. To date, over 4,000 additional 
tenants have signed up for our Rental Assistance Program, who 
received assistance from these navigating agencies. These are 
vulnerable populations with barriers to access to these 
resources. These navigating agencies were chosen for their 
diversity and ability to connect with these diverse 
communities, and their ability to remove such barriers such as 
technology, language, trust, or any other accessibility to 
these programs. So, we are very grateful and thankful to these 
agencies, and we look forward to their continued work in the 
program.
    Another piece of our strategy around outreach and ensuring 
that funding and resources are available to everyone is part of 
our work that we did early on in 2020 as we developed our 
equity dashboards. We partnered with a long-time partner here, 
Moksha Data, who helped us develop these dashboards that looked 
at the census tract level, and we built a formula that takes 
into consideration the Social Vulnerability Index of each 
census tract that looks at how many rental units are within 
each census tract and looks at the paid data that we generate 
for payments to landlords. In that sense, what we did, and we 
have a slide that we could share with you at some point, what 
we did was create a map of our region of where resources were 
going and where there were gaps in resources going out to 
certain communities. As we identified those gaps, then the 
navigating agencies would go out, talk to landlords, talk to 
tenants, build a trust with the community, and get individuals 
signed up for the program.
    Mr. Clyburn. Now, I only have about 45 seconds left. Can 
you tell me how did you target those areas? Did you have 
information as to where the people were or where the housing 
was needed?
    Mr. Solis. Yes. Again, it was that equity dashboard that we 
built early on. We looked at the Social Vulnerability Index for 
each census tract, which looks at different vulnerability 
elements, such as poverty, education, housing, transportation, 
et cetera, and we mapped that all out for our region. And then 
we crossed over where there were rental units within each 
census tract, and that was the data we used to it effectively 
reach these vulnerable populations. Again, what we ended up 
looking at was where was the funding going and is it going 
specifically to those vulnerable neighborhoods.
    Mr. Clyburn. Thank you.
    Mr. Solis. And if it is not, then address the reasons why 
it is not.
    Mr. Clyburn. Thank you. My time has expired. I will now 
recognize the ranking member for five minutes.
    Mr. Scalise. Thank you, Mr. Chairman, and I have some 
questions I am going to ask. Obviously when we were having the 
opening statements, I was talking about the number of people we 
are seeing coming across the border illegally. But also, we 
have had a hearing on this where Dr. Fauci, among others, 
testified that the CDC is violating their own guidance at the 
border in terms of trying to stop the spread. I wanted to see 
if we could run, there here is a video, Mr. Chairman, that we 
have given to your staff, if we could run that video right now.
    [Video shown.]
    Mr. Scalise. So, Mr. Chairman, as we can see, Dr. Fauci 
testified back a few months that what we are seeing at the 
border by the Biden Administration is violating their own CDC 
guidance about how to properly protect people from spreading 
COVID. Since that hearing, Mr. Chairman, at least another 
400,000 people have come across our border illegally, and those 
are just the ones that were apprehended. Many of them, as our 
Border Patrol agents tell us, are COVID positive now with the 
Lambda variant. Do we need to keep saying this before we 
finally have a hearing to confront this? But the Lambda variant 
could potentially be more dangerous than the Delta variant. It 
is widespread in Peru. It is coming across our border right now 
through South and Central America into the United States. At 
what point we are going to have a hearing to confront how to 
stop this? At what point is President Biden going to get 
control of the southern border so we don't see the Lambda 
variant take over in our country like we are seeing the Delta 
variant?
    But to the issue at hand, I do want to ask Mr. Griffith, 
regarding the vaccines, do you think they are safe and 
effective?
    Mr. Griffith. From what we know, these vaccines are 
incredibly safe, very effective, and it is in large part why 
much of the country has been able to return to normal.
    Mr. Scalise. And it was clearly Operation Warp Speed 
efforts that brought these to the market so quickly. Are these 
vaccines available to everybody who wants to take them?
    Mr. Griffith. Thankfully in this country, these vaccines 
are widely available. Every person who wants a vaccine can get 
one. They are available at no cost, and across the entirety of 
the country you can get a vaccine with almost no wait, same 
day. Show up, you can get the vaccine.
    Mr. Scalise. And so, you know, you are seeing some 
employers that are encouraging their employees to get 
vaccinated as we try to push to get people back to work. How 
many job openings are there in the country?
    Mr. Griffith. We have over 9 million job openings right 
now. In fact, we have never had this many job openings. There 
are more job openings now than there were prior to the 
pandemic. There are more job openings now than there are the 
total number of people unemployed in this country.
    Mr. Scalise. And see, that is something that we have been 
talking about. Do you think it is good policy to be borrowing 
money from our children to pay people not to work at a time 
where there maybe be more job openings than we have ever seen 
before?
    Mr. Griffith. No, we are mortgaging our children's future, 
our grandchildren's future. We are beginning to feel the 
impacts of that right now over this past year. As you noted, 
our cost of living is actually increasing at a greater clip 
than our actual income levels, and we know for a fact that 
borrowing money from the future to pay people not to work has 
actually resulted in many people choosing to not go back to 
work. We know this anecdotally from talking to people, but the 
numbers are showing up in the data as well because you can 
compare and contrast those states that have cutoff Federal 
unemployment bonuses with those states that haven't, and the 
data are clear. The states that have cutoff those bonuses have 
recovered at a much greater clip.
    Mr. Scalise. And then we are seeing our economy pick up or 
seeing people able to get back to their lives, not having 
problems with rent because they are working again. You are 
hearing talk around this place by people that just want to 
spend and spend and spend as if it is money just growing off 
trees. Do you think a multi-trillion-dollar spending package on 
top of the trillions that have already been spent would do 
anything to add to the inflation we are already seeing?
    Mr. Griffith. It could quite possibly. In fact, don't just 
take my word for it. Lawrence Summers, who was one of President 
Obama's top advisors, has actually warned about this 
possibility as well. The fact is every new dollar that is 
appropriated by Congress is a dollar that we actually aren't 
taking in from taxes. We are borrowing this, or we are having 
our central banks print the money, buy the debt, and inject it 
into the economy, and there will be negative consequences for 
that in terms of the standard of living for the typical family 
being lower than it would otherwise have been because their 
cost of living will increase as a result of possible 
inflationary pressures.
    Mr. Scalise. Well, I appreciate your testimony, and, Mr. 
Chairman, I yield back.
    Mr. Clyburn. I thank the ranking member for yielding back. 
The chair now yields to Ms. Waters for five minutes.
    Ms. Waters. Thank you very much, Mr. Chairman, and I really 
do appreciate your calling this hearing. It is very important. 
However, I must spend a few minutes dealing with Mr. Scalise 
and his attack on the Administration. Mr. Scalise talked about 
what was happening with COVID-19, and I am looking at this 
article in his local newspaper that says, ``After months of 
waiting and as cases spiked, GOP lawmaker gets first COVID 
shot. 'The vaccine works.' '' And it was on Sunday that Mr. 
Scalise received his first Pfizer vaccination at a clinic in 
Jefferson Parish. I don't think he has even received his second 
Pfizer vaccination. And so, this business about him now 
becoming, you know, concerned and having gotten religion about 
vaccinations is very interesting. I appreciate that he has come 
around----
    Mr. Scalise. Would the gentlelady yield?
    Ms. Waters. No, not right now. I appreciate that he has 
come around because while cases of the virus and 
hospitalizations are on the rise, vaccinations have become a 
dividing line in the U.S. with many conservative-leaning 
Americans choosing not to get vaccinated, despite the 
scientific consensus that the COVID vaccine is extremely safe 
and extremely effective. Again, this is coming from an article 
that was written about Mr. Scalise and his hesitancy with 
getting vaccinated, and when asked time and time again, he 
would just say, ``soon.'' Some political scientists have 
attributed the polarization to former President Donald Trump's 
public downplaying of the virus, even as he was sickened and 
hospitalized with COVID-19 and has since gotten the vaccine 
himself.
    And so, I just wanted to insert, you know, that information 
into the record because of the attack that Mr. Scalise made on 
this Administration.
    Ms. Waters. And now let me get to rental assistance. This 
is very important to me because it was the No. 1 priority for 
me in dealing with the American Relief Plan that we were able 
to increase the total amount of rental assistance to about $47 
billion, and this is so very important. And I want you to know 
that I am pleased that Ms. Yentel is here today. Because of 
her, president and CEO of the National Low Income Housing 
Coalition, that we have been able to get all of this money. She 
not only organized and worked with the other housing advocacy 
groups, she was responsible for the kind of insistence on 
making sure that we had an adequate amount to deal with rental 
assistance.
    And she worked with the Administration. The Biden 
Administration adopted many of NLIHCA's recommendations, 
including extending the eviction moratorium and releasing an 
updated FAQ 50 and Fact Sheet 51, June 24, to accelerate and 
broaden the distribution of ERA. The White House encouraged 
state courts to adopt anti-eviction diversion practices, 
activated a whole-of-government effort to raise awareness of 
ERA, and Treasury issued new guidance to accelerate and broaden 
state and local distribution of funds. Treasury's revised FAQ 
strongly encourages grantees to partner with courts to actively 
prevent evictions and develop eviction diversion programs, 
increase access to ERA for people experiencing homelessness by 
establishing a commitment letter process, directs grantees to 
remove cultural and linguistic barriers to accessing aid, 
encourages grantee coordination to reduce burdens and delays, 
and streamlines payments for utility providers and land boards.
    I, too, worry about these evictions. The moratorium is 
going to be over at the end of this month, and I think it is 
absolutely necessary for us to pay attention, to do everything 
that we can to make sure that we just simply aren't having 
evictions that are going to put people out on the street and 
increase homelessness. That is why I am so appreciative for 
this hearing today, Mr. Chairman.
    And so, with that, I want you to know that I was always 
worried about distribution. This is huge. This is not easy to 
do. And now we have put the money in the hands of state 
governments, and I want the governors and the elected officials 
in the states to come up with programs that will do what we 
intend them to do. Some have been more successful than others, 
like we are hearing about in Harris County. Others are slower, 
and so we have got to get them all up to speed because this is 
absolutely necessary to deal with protection for our families.
    And I am also concerned about small landlords, not the big 
boys--they can take care of themselves--but the small landlords 
who depend on this for their mortgage payments, who depend on 
rental assistance for their retirement income. I am concerned 
about them, too, so I wish that we could challenge the courts. 
I know what the court decisions have been, and I know what they 
are saying to us, but we need to go ahead and go back to the 
courts and ask them to please allow this Administration to 
extend the moratorium on evictions. So, I want you to know, Mr. 
Chairman, that it just happened that I met with Secretary 
Yellen this morning, and she and her staff are working very 
hard to do everything that they can to assist the governors and 
the states in getting this money out.
    I thank you, and I yield back the balance of my time.
    Mr. Clyburn. The gentlelady's time has expired.
    Mr. Scalise. Mr. Chairman, I believe under the rules, I 
have an opportunity to respond since----
    Mr. Clyburn. The chair recognizes the ranking member.
    Mr. Scalise. Thank you, Mr. Chairman. If you go back well 
over months ago, I have been promoting the vaccine, and I 
obviously had a lot of conversations with my doctors for a 
number of reasons. I needed to make sure that it was the right 
time for me, but I was promoting the vaccine all along the way 
and calling people out who did promote vaccine hesitancy, 
which, by the way, if you start with President Biden himself.
    [Video shown.]
    Mr. Scalise. You want to talk about vaccine hesitancy? That 
is vaccine hesitancy.
    Ms. Waters. No, it is not.
    Mr. Scalise. President Biden needs to come out and admit he 
was wrong when he was trying to discourage people from taking 
the vaccine late last year. It is safe. It is effective. And 
anybody who was trying to give concern about the vaccine or the 
FDA owes an apology because that is just not accurate. So 
anyway, I am going to continue to promote the vaccine and the 
safety and effectiveness of it, and I would encourage others to 
take it. I yield back.
    Ms. Waters. [Speaking foreign language.]
    Mr. Clyburn. I want to thank you for yielding back. 
However, Mr. Scalise, I think you are aware that those comments 
were made before the vaccine was approved.
    Mr. Scalise. But it was made during the process of the FDA 
going through Operation Warp Speed----
    Mr. Clyburn. Well, during the process is one thing----
    Mr. Scalise [continuing]. which produced three vaccines.
    Mr. Clyburn. During the process is one thing, but they were 
made before the vaccines.
    Mr. Scalise. But people listened to that and said why take 
it if Joe Biden said it at the time that he was not President. 
If he said the process was rushed or the FDA shouldn't be 
trusted, do you really think there weren't people listening to 
that?
    Mr. Clyburn. OK. I just want the record to be clear that 
the vaccines were not approved when those statements were made. 
And with that, the chair now recognizes Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman. Those statements were 
made in a political context in the heat of a campaign. We all 
know what that was about. It was all about politics, which is 
so much at what drives this place from the majority's 
perspective. Mr. Griffith. Mr. Griffith. Last week at a half-
filled auditorium, President Biden said, if you increase 
spending, it will bring inflation down. Do you agree with that 
statement?
    Mr. Griffith. I would love to know under what world that 
would actually work. We know that right now, with all the money 
that the Federal Government is spending, all the new funds that 
are appropriated that comes from borrowing money, and, 
oftentimes, that borrowed money actually comes thanks to the 
central banks printing more money to purchase those bonds, 
which then are injected into the economy.
    Mr. Jordan. So, you disagree with that.
    Mr. Griffith. I disagree wholeheartedly.
    Mr. Jordan. Yes, me, too. I not only disagree. I think it 
is stupid. Anyone who's got a brain understands that that isn't 
going to work. I mean, it is like they have spent money like 
crazy. Are you surprised that we now have inflation, that the 
price of every single good and service is, almost every single 
thing, I can't think of one that is not up, that almost every 
single good and service is up? Are you surprised about that?
    Mr. Griffith. No, I am not surprised. We have the economy 
reopening, but on top of that, we have trillions of dollars 
more of Federal dollars that have been injected into the 
economy. And besides that, we see housing prices aren't even 
factored into that inflation rate. We have that housing bubble 
that is really becoming a burden now on middle-class families.
    Mr. Jordan. So, the Democrats' economic plan seems to be a 
four-part plan. Step one, continue to lock down the economy. We 
have Democrat governors, Democrat mayors going back to lockdown 
measures. So, the Democrats' economic plan, lock down the 
economy. Spend like crazy, No. 2. Pay people not to work, 
right? You talked about the unemployment situation in our 
economy today. So, continue to lock down the economy, spend 
like crazy, pay people not to work, and step four they are 
getting ready to do, which is for the people who are working, 
we are going to raise your taxes. Now, again, that may be the 
four most stupid economic policies you can imagine, but that 
seems to be their economic plan. Do you agree?
    Mr. Griffith. No, that is absolutely the plan, and we know 
that the longer-term objective here is to centralize more power 
here in Washington, DC. and to fundamentally transform the 
economy. They are not even hiding it. But then the 
infrastructure package that you are considering now, that 
Congress is considering now, we know that 95 percent of that is 
not even going to infrastructure, but it would actually try to 
revolutionize our energy industry, which by ``revolutionize,'' 
I mean, causing a typical family $8,000 more per year to live 
by artificially driving up the cost of everything in their life 
that uses energy. And that is in the infrastructure plan.
    Mr. Jordan. Now, the program we are talking about today, 
this eviction issue and everything, isn't it true that people 
who make up to $99,000 a year can be eligible for this program 
and not pay their rent? Well, isn't that true?
    Mr. Griffith. Yes, states have much leeway to put in those 
parameters, but in many instances, yes, people at that income 
level can qualify.
    Mr. Jordan. Ninety-nine thousand dollars. Every employer I 
talked to in our district can't find people to work, and we 
have a program in our district. Ninety-nine thousand. Jeepers, 
you are probably in the top 3 or 4 percent of income earners. 
If you make almost $100 grand a year, you are at the income 
scale in Champaign County, Ohio, Shelby County, Ohio. But they 
can self-attest, right? All they have to do attest to a 
statement. Now, one really checks it and say, you know, I make 
$98,999.99, and I am eligible to not pay my rent.
    Mr. Griffith. Well, not only can you self-attest to that, 
you can also self-attest to whether or not you were impacted by 
COVID.
    Mr. Jordan. Yes. Yes. Yes, that is the program, right? Do 
you think that is contributing to the fact that not a single 
employer out there that I have talked to can find people 
willing to work? You got signs everywhere, ``help wanted,'' 
``please help,'' ``we'll hire,'' ``come in,'' ``we will give 
you a bonus if you come to work.'' Do you think that is 
contributing to that situation today?
    Mr. Griffith. Oh yes, without a doubt. And anecdotally, we 
know that happens. I mean, I have been all over the South over 
the last few months and you see the signs. I have talked to 
business owners, but we see that as far as the data as well. We 
know that this is impacting the desire for people to actually 
want to go to work.
    Mr. Jordan. If you pay people not to work, you shouldn't be 
surprised when you can't find workers, right?
    Mr. Griffith. Right.
    Mr. Jordan. I mean, the folks I represent, that is just 
common sense. They get it, right? This is the craziest. I mean, 
I have never seen a more crazy economic plan than what the 
Democrats keep putting forward. Lock down your economy, spend 
like crazy, which they say doesn't cause inflation, but 
everyone with the brain knows it does. Then they say, oh, we 
are going to pay people not to work, and, oh, for the people 
who have been working their tail off for the last year-and-a-
half or whatever, we are going to raise your taxes. Wow. Such a 
deal. That is the Democrats' economic plan, and yet we have a 
hearing on this. ``We need to continue this program.'' ``We 
need to continue to let people self-attest that when they make 
$98,999.999 and can go without paying their rent.'' Holy cow. I 
just don't get it.
    And when this committee could be, as the only select 
committee in the Congress on coronavirus, could actually be 
asking the same question that The Washington Post and The Wall 
Street Journal want us to ask, which is why would were we 
funding this research in Wuhan, China? What was really the 
origin of this virus? We should be dealing with that issue. 
Even The Washington Post and The Wall Street Journal say that, 
but, no, we are going to talk about this. I yield back.
    Mr. Clyburn. I thank the gentleman for yielding back. The 
chair now recognizes Ms. Velazquez.
    Ms. Velazquez. Thank you, Mr. Chairman. Ms. Yentel, a New 
York Times article found that New York City landlords are 
filing evictions 3.6 times faster in zip codes hardest hit by 
COVID, and roughly 68 percent of these residents are people of 
color. How are the pandemic eviction findings impacting 
communities of color and vulnerable populations? And by the 
way, do you have any data that shows how many of those making 
$99,000 in income have not paid or have filed for evictions?
    Ms. Yentel. Thank you, Congresswoman Velazquez. If I could 
take a moment just to clarify that both the Congressman and the 
witness are wrong that rent is not due under the Federal 
eviction moratorium. What the Federal eviction moratorium does 
is prevent evictions, and, in doing so, prevent the spread of 
and deaths from COVID-19.
    Mr. Jordan.
    [Inaudible.]
    Ms. Velazquez. Mr. Chairman, could the gentleman respect 
the witness? This is my time.
    Mr. Jordan.
    [Inaudible.]
    Ms. Velazquez. It is my time.
    Mr. Clyburn. Mr. Jordan, we are not going to tolerate that.
    Ms. Yentel. The rent is still due, and low-income renters 
have done all they could during the pandemic to pay it. They 
have taken out loans. They have used credit cards. They have 
put off buying store-bought food or paying for internet that 
their children need for virtual school. They have made 
tradeoffs to pay the rent when they can, and when they can't, 
they fell behind, which is why the emergency rental assistance 
is so essential to pay the arrears that have accrued during the 
pandemic.
    To your question, yes, the pandemic has certainly 
exacerbated preexisting inequities for people of color. Pre-
pandemic, due to decades of systemic racism in multiple 
systems, people of color are disproportionately likely to be 
renters, to be extremely low income, to be behind on rent, to 
experience homelessness, and COVID-19 compounded these 
inequities. So black and Native-American people were 
disproportionately likely to contract and die from COVID-19, 
black and Latino workers were disproportionately likely to lose 
jobs, and people of color disproportionately fell behind on 
rent. So today, about 25 percent of all black renters are 
behind on rent compared to 10 percent of white, and of those 
six-and-a-half million renters behind on rent, those six-and-a-
half million households behind on rent, the majority of them 
are people of color.
    Ms. Velazquez. Thank you. Mr. Baker, your organization 
found that the corporate landlord, Pretium Partners, has moved 
to evict tenants in majority black areas at a much higher rate 
than tenants in majority white areas. Can you explain how some 
corporate landlords are moving to evict tenants in a racially 
disparate manner?
    Mr. Baker. Thank you, Representative Velazquez. That is 
correct. Pretium Partners is a private equity firm. Along with 
Ares Management, another large private equity firm, they have 
been, you know, buying more homes, and earlier this year, you 
know, purchased a company called Front Yard Residential. They 
own lots of single-family rental homes. We noticed that, you 
know, they were filing to evict hundreds of residents in DeKalb 
and Clayton Counties, two majority-black counties in Georgia, 
and it was, frankly, striking just the large volume, like I 
said, you know, 113 filings in just the first eight days of the 
year. And so, frankly, we were struck, and so we took a closer 
look at some of their filings and, you know, compared it to 
other counties where they owned homes, Polk and Seminole 
Counties in Florida, two majority-white counties in Florida, 
and found that they had been filing to evict renters in DeKalb 
and Clayton Counties, the majority-black counties in Georgia, 
at this point, seven times higher rates, so much, much higher 
rates.
    Ms. Velazquez. Can you tell us what share of evictions in 
the areas that you have tracked had been filed by corporate 
landlords, and if this is a trend nationwide?
    Mr. Baker. As we looked at a number of the areas that we 
have tracked, so counties like Maricopa County which is 
Phoenix, Harris County which is Houston, DeKalb County which is 
Atlanta, and some of the suburbs, right, Hillsborough County 
which is Tampa, we found that the majority of the eviction 
filings were by these large corporate landlords, landlords with 
1,000 units or more. So not mom-and-pop landlords, but really, 
it was the larger corporate landlords that have been driving 
the evictions. We have looked at this few different times over 
the last several months. It was true back in December. It was 
true in September just after CDC eviction moratorium was put in 
place in the first place.
    Ms. Velazquez. My time has expired.
    Mr. Clyburn. The gentlelady's time has expired. Mr. Green, 
you are recognized for five minutes.
    Mr. Green. Thank you, Mr. Chairman and Ranking Member. 
Thank you to our witnesses for being here today. Today's 
hearing comes a few days before the CDC's moratorium will 
allegedly end, and I say ``allegedly'' because the CDC has 
already extended the ban multiple times. Let me be clear. The 
CDC's moratorium is one of the most blatant power grabs that we 
have seen in the course of the pandemic. The CDC has assumed 
that it had the authority to do essentially whatever it wanted, 
no matter what the law said and no matter how tenuous the 
connection to public health. The CDC moratorium is an offense 
to two fundamental cornerstones of our republic: federalism and 
states' rights. Congress never passed a law allowing the CDC to 
ban evictions, but there is more than just that. Congress could 
not delegate this power to the Federal Government even if it 
wanted to. Even a generous reading of the Commerce Clause did 
not give Congress the power to do this. That is our 
constitutional system of government. And how can we claim 
private property rights if the Federal Government can just come 
in and tell you that you cannot enforce the terms of a basic 
contract? This is one of the most shameless cases of 
bureaucracy gone rogue that I have ever seen.
    And I am not sure how an eviction moratorium prevents the 
spread of COVID-19. The eviction moratorium is almost identical 
to what government has done to healthcare. Let me explain. As 
more renters are subsidized with government dollars, landlords, 
especially mom-and-pop, small business landlords who have maybe 
one or two or three properties, they have to cost shift to 
other people. They cost shift to other renters, and that drives 
up the price of overall rent. And you add to that the inflation 
caused by the increased dollars in the economy and the current 
Administration's economic policies, rapidly increasing rates, 
rapidly increasing inflation, you basically get a horrible 
spiral that is occurring right now in our economy. And a 
tertiary effect is also there and real. These small rental 
companies can't generate the revenue to cover the losses. So, 
what do they do? They get out of business. All the small 
companies get out of business. All you are left with are large, 
huge rental companies because they can absorb the losses. Let 
there be no doubt: this is destroying everyday Americans who 
put their savings into owning a rental property. It is driving 
the price of rent up. It is driving up inflation, and it is 
harming low-income Americans just like healthcare, just like 
government intrusion into healthcare.
    And here is another example of something that is 
contributing to at least an increase in prices in my state, in 
the state of Tennessee. People are leaving California, 
Illinois, and New York because of Democrat liberal policies 
just like this. You know what they are doing? They are buying 
houses off the market in Tennessee, sight unseen off the 
internet, driving the price of properties in my state through 
the roof. Why? Because of failed liberal policies in places 
like California, New York, and Illinois. Great examples of just 
this kind of stupidity. It is another example of well-meaning 
politicians who wind up destroying the very thing they want to 
save.
    We see it in healthcare. I ran a healthcare company. I am a 
physician. What do they do? They intrude on the doctor-patient 
relationship, and now they are intruding on the renter-rentee 
relationship, the landlord-lendee relationship. We are seeing 
it everywhere, these small companies going out of business. 
They put their life savings into buying two or three rental 
properties, get a little bit ahead, and now they can't cover 
their losses.
    Mr. Griffith, I probably have only time for one question 
here. I am concerned that the eviction moratorium is 
detrimentally impacting small landlords, that the debt they are 
being saddled with could seriously impact them not just in the 
short term, but in the long term. Would improvements to the 
distribution of emergency rental assistance funds help small 
property owners recover from the pandemic?
    Mr. Griffith. It could immensely help. If you look at the 
difference in city by city in the distribution efforts, you 
have places like Chicago and L.A. that barely distributed a 
dollar. New York City has distributed, what, $100,000 in aid. 
Meanwhile, you have Des Moines that has distributed almost 70 
percent of the aid that was allocated to them. And just take a 
look at some of the distribution sites to see the ease-of-use. 
I have done that for New York City and Des Moines.
    Mr. Green. Why do you think they are holding on to the 
dollars and not distributing them?
    Mr. Griffith. You know, a lot of them are putting the 
strings attached. If you look at the New York requirements, if 
you are New York landlord and you take the aid to make up for 
your losses, you have to agree that you will not evict the 
person for future non-payment for the next year. You have to 
agree that you won't increase rent prices for the next year. 
You put so many strings attached to the aid that a lot of 
landlords, they can't make the decision to accept it because 
they know it will inhibit their ability to turn a profit for 
years to come.
    Mr. Clyburn. I assume the gentleman yields back. As I go to 
the next gentleman, Mr. Foster, I just want to mention for the 
record that the CDC eviction moratorium was placed by the 
previous Administration, not this one. I just want that to be 
clear. With that, I yield to Mr. Foster.
    Mr. Foster. Thank you, Mr. Chairman, and to our witnesses. 
I am very concerned about the public health consequences of 
fighting this pandemic if we experience a surge in evictions. 
You know, the CDC, when it established the moratorium, you 
know, published a very detailed justification that I think I 
would urge everyone to reread because, you know, at the time 
there was a lot we did not know about the contagious aspects of 
this virus, but we know a lot more now. And we are ultimately 
going to get this answered because we are seeing a big range in 
eviction policies in different states and jurisdictions, and 
what we are going to see is a spike in coronavirus in the 
affected populations. I think when I look at where people who 
become homeless end up, they end up in places where it is 
really hard to maintain social distancing, and so it wasn't for 
no reason that the CDC under President Trump established this.
    And this is starting to be looked at by academics. There 
are studies by professors at Duke University and UCLA that have 
suggested that preventing evictions really also reduces 
transmission of the coronavirus.
    Excuse me. Is there microphone trouble here? Am I audible? 
OK. Thank you.
    So, the CDC says that people experiencing homelessness are 
at greater risk of contracting and transmitting the virus. So, 
Ms. Yentel, can you explain how an increase in evictions might 
contribute to increasing transmission of the coronavirus?
    Ms. Yentel. Yes, thank you for the opportunity. Research 
has proven that increased evictions lead to increased spread of 
and deaths from COVID-19. There is a recently peer-reviewed 
published paper by epidemiologists, and sociologists, and 
others that found that state and local eviction moratoriums did 
result in 400,000 additional cases of COVID-19 and over 10,000 
preventable deaths. That is because, as you say, when very low-
or extremely low-income people lose their homes, they have very 
few options available to them, so they most often double or 
triple up into overcrowded housing, or they end up in 
encampments or congregate shelters. Both options make it very 
difficult, if not impossible, to socially distance, and lead to 
spread of COVID-19 and spread among a population, especially in 
congregate shelters that have a whole host of underlying health 
conditions that make them especially vulnerable to severe 
illness or death if they contract COVID-19.
    Mr. Foster. Thank you. Any of the other witnesses have any 
reason to believe this might not be the case, that it is more 
complex than this? Yes?
    Mr. Griffith. Thank you. Well, we have to ask whether or 
not the CDC actually has the power to suspend the evictions, 
and it is established that they don't have that power. And then 
we have to ask does Congress have the power to give them the 
power, and they don't. But third, when it comes to the eviction 
process itself, this is a state matter. This is the first time 
that we have criminalized access to state courts by property 
owners.
    Mr. Foster. No, I was interested in the scientific question 
of whether more people will die if, for whatever reason, the 
eviction moratoria are not preserved, and it seems to me the 
answer is pretty clearly yes. Mr. Baker, I understand that your 
organization has tracked eviction filings by large landlords 
over the course of the pandemic in select counties in six 
states, which appears to be a significant undertaking. It is 
the kind of data we will need to get to the bottom of this and 
other questions. Other organizations also track evictions, but 
generally they also only collect data from certain state and 
cities. So, Mr. Baker, what are the barriers to collecting 
better data on eviction filings so we can really understand 
questions like this?
    Mr. Baker. Thank you, Representative Foster. It is wildly 
different from county to county, from state to state. In some 
states, you know, by locality, just the availability of data, 
the, you know, kind of access, the availability of data on what 
actually happens with eviction filings, et cetera. So, you 
know, we have seen wildly different availability of data. And, 
you know, like I said, I mean, I think that we have tracked and 
noticed 75,000 eviction actions by corporate landlords, by 
these large landlords, but, you know, that is just a small 
subset of jurisdictions. There are clearly many, many more 
that, you know, that we are not able to track, that we haven't 
seen, and so it really just scratches the surface. Really, 
these 75,000 filings are the tip of the iceberg, and, you know, 
make us extremely concerned as we get closer to the expiration 
of the CDC moratorium, you know, what we will see, right?
    When we have looked at some of these companies--Pretium 
Partners, Ms. Chism's landlord, or HavenBrook, et cetera, you 
know, we see landlords that, you know, in many cases have, you 
know, filed, like I said, hundreds or thousands of eviction 
cases, but there are clearly more that we haven't seen. And 
there are many where, you know, frankly, you know, as we get to 
the end of the moratorium, we could see significant harm to 
large numbers of renters.
    Mr. Foster. Yes. Thank you, and I believe my time has 
expired, so I will yield back.
    Mr. Clyburn. I thank the gentleman for yielding back. The 
chair now recognizes Mrs. Miller-Meeks for five minutes.
    Mrs. Miller-Meeks. Thank you, Mr. Chair. I would like to 
ask for unanimous consent to enter into the record a written 
submission from the National Association of Realtors and also a 
letter and supporting documents from Pretium.
    Mr. Clyburn. Without objection.
    Mrs. Miller-Meeks. Thank you. So, I think this has been 
very interesting testimony that we have heard today. So, we 
have too much money chasing too few goods, which has led to 
inflation, which even the Fed Secretary, Jerome Powell in his 
testimony here, acknowledged that inflation was in excess of 
what we have seen in several decades, although the 
Administration is hoping that it is transitory. And we also 
know that inflation is an insidious tax and a regressive tax 
that disproportionately affects people of color, low-income 
individuals, working families, and seniors on a fixed income. 
So, Mr. Baker, do you think inflation would have any bearing on 
the ability of someone to rent or pay their rent, whether there 
is a pandemic or not?
    Mr. Baker. I am not an economist, and so I cannot speak 
to----
    Mrs. Miller-Meeks. OK. Thank you very much. In March, I 
introduced H.R.----
    Mr. Baker. Wait. What I would say is, you know, clearly, 
you know, a landlord substantially increasing somebody's rent, 
you know, as Ms. Chism highlighted, clearly, like, has a 
significant impact, and so that is exactly what we have seen. 
You know, Pretium, I used as an example. We have seen other 
companies. Invitation Homes is publicly traded. They reported 
in their SEC filings there was a----
    Mrs. Miller-Meeks. My question was whether inflation----
    Mr. Baker [continuing]. when there was a switchover to a 
new renter----
    Mrs. Miller-Meeks. My question was whether or not inflation 
would have a bearing on paying rental income. I have mom-and-
pop individuals, ordinary people, low to middle income who have 
rented their houses in my neighborhood, which in Southeast Iowa 
has the highest rate of unemployment and the lowest wages in 
the state, who have had challenges and problems. And because we 
are small communities, they know that they are getting stimulus 
checks. They know that their renter is getting unemployment, 
yet not paying rent. So, my question, I get that you are not an 
economist and you can't answer.
    In March, I introduced H.R. 1897, the REACT Act, which 
would require the Department of Homeland Security to test all 
migrants coming across our borders who are released into the 
U.S. That was voted down. Given the increase in rates of COVID-
19 with Delta and Lambda variants, it seems fitting that this 
committee should focus on ensuring testing for more than 1.1 
million migrants encountered along the southwest border so far, 
yet we don't require this, these individuals that come across 
our border or are put on planes or buses, taken to communities, 
and they are placed in facilities which are large facilities, 
convention centers. And are any of the panelists aware if 
COVID-19 testing is being required at the border, and if multi-
tenant housing owners should require testing before renting and 
putting their other occupants at risk? Thank you. I would say 
we should still be testing at the border.
    Mr. Baker, in your testimony, you stated that you had 
identified over 75,000 evictions during the CDC eviction 
moratorium. As we have heard already today, we know the CDC's 
eviction moratorium is not blanket in nature and does not bar 
all residential evictions, and the moratorium only applies to 
monetary defaults. Nonetheless, it is estimated there are 43 
million units of rental housing in the U.S. Do you agree with 
that figure?
    Mr. Baker. Yes. I mean, I----
    Mrs. Miller-Meeks. Eviction notices being filed are 
approximately 0.17 percent of all rental housing units. Is that 
correct?
    Mr. Baker. That is incorrect. As I mentioned in my 
statement, we are tracking evictions across a subset, right? 
And as I mentioned in response to Mr. Foster's question, the 
data is extremely fragmented, right? And so, there is different 
data across different cities, across different states, and so 
we have sought to attract as many places as possible. But it is 
absolutely incorrect to do a simple division as you just did.
    Mrs. Miller-Meeks. OK.
    Mr. Baker. It is just not the right way to interpret the 
figure.
    Mrs. Miller-Meeks. But would you say that the data on how 
many eviction notices resulting in actual displacements is 
small?
    Mr. Baker. As I said, we need better data in terms of----
    Mrs. Miller-Meeks. OK. So essentially, what I am hearing as 
I am here is we are spending our time in a committee discussing 
an issue that, while it is very important, is only affecting a 
very small percentage of people and for which policies have 
been put in place that maybe more constitutionally based. And 
essentially, we don't have the data to tell us how many 
displacements. Meanwhile, in a committee that is addressing the 
Select Coronavirus Task Force, we still don't know the origins 
of COVID-19, and we have representatives here suggesting that 
the origins of COVID-19 investigation would be brought up in 
another committee. And it is important for public health, 
national security, and also for how our media treats 
information and where it comes from, that we know the origins 
of COVID-19, which we still don't have, and a CDC which is now 
going to ask that people who are doubly vaccinated wear masks.
    So, I think there are important questions that we need to 
address and policies that should be put in place 
constitutionally to assist people. Thank you. I yield back my 
time.
    Mr. Clyburn. The gentlelady's time has expired. The chair 
now recognizes Mr. Krishnamoorthi for five minutes.
    Mr. Krishnamoorthi. Thank you, Mr. Chair. I wanted to ask a 
question of Ms. Yentel first. Ms. Yentel, can you tell me how 
many children have been in homes that have basically benefited 
from this particular eviction moratorium?
    Ms. Yentel. I don't have the specific number of children, 
but I can say that the CDC eviction moratorium, generally 
speaking, has kept tens of millions of renters, who otherwise 
would have lost their homes, stably housed. And there was 
research from the Eviction Lab that showed that there were at 
least 1.5 million fewer evictions under the Federal eviction 
moratorium than otherwise would have occurred.
    Mr. Krishnamoorthi. And that was the eviction moratorium 
that Donald Trump put in place, correct?
    Ms. Yentel. President Donald Trump implemented the CDC 
eviction moratorium. President Biden has extended it several 
times. And in between, Congress, on a bipartisan basis, 
extended the Federal eviction moratorium, given clear 
congressional authority for it.
    Mr. Krishnamoorthi. Mr. Griffith, I want to turn your 
attention to an article that you wrote with a gentleman named 
Stephen Moore. It is entitled, ``The Myth of the Idle Rich.'' 
And in that particular article, which you penned in June 2015, 
you said the following: ``Yes, the average poor family doesn't 
work nearly as much as the rich families do, and that is a key 
reason why these households are poor.'' You don't dispute that 
you wrote that in this article, ``The Myth of the Idle Rich,'' 
correct?
    Mr. Griffith. I did co-author that article.
    Mr. Krishnamoorthi. Now, Ms. Yentel, is it your experience 
that the reason why households are, on average, poor is because 
they just don't work as hard as rich families do?
    Ms. Yentel. No, certainly not. When we look at extremely 
low-income renters, we find that the vast majority of them are 
seniors. They are people with disabilities and they are 
working, and they are often having to work multiple jobs in 
order to make ends meet and still have difficulty paying the 
rent. That is because the housing wage, the amount that 
somebody needs to earn an hour just to be able to afford to 
rent a modest one-bedroom apartment, is $20.40 nationally. It 
is much higher in some communities. Clearly, this is almost 
three times the amount that a low-wage worker earning the 
Federal minimum wage earns, and it is also $2.00 an hour more 
than what the average renter earns. So, renters are working, 
and they are working hard, but housing remains out of reach for 
them.
    Mr. Krishnamoorthi. For that type of family that some 
people think just aren't working hard enough and remain poor, 
how were they affected by the pandemic and the economic 
recession that it induced?
    Ms. Yentel. Well, what I would say is that many, many low-
wage workers throughout the pandemic were not able to stay at 
home. As higher-wage workers were able to work virtually, low-
wage workers were keeping stores open. They were the ones who 
were selling and sharing PPE and other essential services and 
goods that people needed during the pandemic. And as a result, 
many of them contracted COVID-19 and likely died from it as 
well. So, people continued to work during the pandemic, and 
many low-income renters were among those low-wage workers who 
were first to lose their jobs or lose hours at work, lose wages 
when the shutdown occurred, and, as a result, fell behind on 
rent.
    Mr. Krishnamoorthi. Let me jump in for a second. I think 
that one question that is out there among folks with regard to 
the eviction moratorium is that, let me just read you another 
statement from an article that Mr. Griffith wrote in an article 
entitled, ``Why COVID-19 Eviction Moratoriums are Unnecessary, 
Unfair, and Economically Harmful,'' from July 2020. And in 
there, he says, ``The plunge in evictions coinciding with only 
a slight rise in delinquent rent payments strongly suggests the 
current moratorium has allowed many, who remain spared from 
COVID-19 financial stress, to live rent free.'' Now, Mr. 
Griffith, you did write that in July 2020, correct?
    Mr. Griffith. And, Congressman, I want to say thank you for 
your earlier question regarding the idle rich----
    Mr. Krishnamoorthi. Let me just ask this question with 
regard to your quotation, which is this. Ms. Yentel, let's 
clarify something. People are not allowed to live rent free 
during the moratorium, correct?
    Ms. Yentel. Correct.
    Mr. Griffith. That is actually incorrect. People are----
    Ms. Yentel. Rent is still due when people are under the 
eviction moratorium, and, in fact, the declaratory statement 
that tenants need to sign in order to get the benefit of the 
Federal eviction moratorium makes clear that they need to still 
do all that they can to pay the rent, and many renters have.
    Mr. Krishnamoorthi. Thank you. I yield back, Mr. Chair. 
Thank you.
    Mr. Clyburn. Now, before I go any further, in the absence 
of the ranking member, I will yield for a closing statement to 
Mr. Jordan.
    Mr. Jordan. I thank the chairman for yielding. When this 
virus initially came on the scene, Dr. Fauci initially told the 
American people you don't need to wear a mask, then he later 
said, no, we need to wear a mask. Then he said, no, you need to 
wear two masks. Then after that he said, no, back to one mask. 
Then, of course, we went to no mask, and now he is talking 
about we need to wear a mask again. When it comes to the 
question of the origin of the virus, Dr. Fauci has had just as 
many positions. He initially said the United States taxpayer 
money did not fund the Wuhan Institute of Virology. He later 
changed that said, no, no, no, we did find it, but it was 
through a subgrant that he subsequently said, no, no, we funded 
it, but we did no gain-of-function research, and then just last 
Sunday, he said, well, we funded it. There was no gain-of-
function research, but it was a sound scientific decision. And 
then he said this: it would have been negligent to not fund the 
lab in China. I mean, talk about being all over the board.
    I will tell you what is negligent. Negligent is Dr. Fauci's 
ever-changing statements to the American people regarding the 
subject matter that this committee should be looking into. Let 
me look at this email that we got through the FOIA that others 
got that we were able to view through the FOIA request. This 
goes clear back to January 31, 2020, a 10:32 p.m. email that 
Dr. Fauci received from Dr. Christian Anderson. Dr. Christian 
Anderson is one of the individuals who gets our tax dollars, 
the folks I represent, their tax dollars. Dr. Anderson sent 
this email to Dr. Fauci, and he said this: ``The unusual 
features of the virus make up a really small part of the 
genome, so one has to look really closely at all the sequences 
to see that some of the features look engineered,'' and that 
last clause is the key. ``Some of the features of this virus 
look engineered.'' He went on to say, ``Further, I should 
mention after discussions earlier today with Eddie, Bob, and 
Mike''--these are other virologists, other doctors around the 
world who receive our tax dollars via grants from Dr. Fauci--
``Eddie, Bob, and Mike, and myself all find the genome 
inconsistent with expectations from evolutionary theory.'' That 
is a fancy way of saying it is not consistent with evolutionary 
theory, so the virus looks engineered, not consistent with 
evolutionary theory.
    Less than 24 hours after this email, the very next day, 
less than 24 hours later, Dr. Fauci organizes a conference call 
with 11 virologists from around the world. He is the only 
person from government on that call, and that is where they 
talk about getting their story straight and what they are going 
to tell the American people, even though one of the top 
scientists in the world says this virus is engineered, this 
virus is not consistent with evolutionary theory. Now, we don't 
know what happened on that phone call because every single 
email regarding that phone call, every single one has been 
redacted. I hope the majority will actually join us in calling 
for these emails to be unredacted and given to this committee. 
Every single one is redacted.
    We do know what happened three days later. Dr. Anderson 
changed his story, and he went from this virus looks 
engineered, this virus is not consistent with evolutionary 
theory, to you are crazy if you think it came from the lab. I 
find that interesting because one of the guys who testified 
four weeks ago when Dr. Fauci wouldn't was Dr. Giroir, who has 
testified in front of this committee a couple times, former 
assistant secretary for health. Here is what Dr. Giroir said: 
``I believe it is just too much of a coincidence that a 
worldwide pandemic caused by a novel bat coronavirus that 
cannot be found in nature, started just a few miles away from a 
secretive laboratory doing potentially dangerous research on 
coronaviruses.'' Well, shazam, that is pretty common sense. Dr. 
Fauci, I think, was on notice of this very fact clear back on 
January 31, 2020. We all now see as common sense what Dr. Fauci 
continues to downplay, continues to say is not true.
    And here is what is interesting. This Thursday, we just 
found out, this Thursday, the majority has asked Dr. Fauci to 
come back in front of this committee for a third time. Third 
time. But guess what? It is not going to be public. It is going 
to be private. Private briefing. After all these concerns have 
been raised, you got what Dr. Giroir said, you got what 
everyone one says, anyone with common sense now knows the most 
likely origin of this virus was that lab in Wuhan, China, the 
Democrats bringing Dr. Fauci back, but he won't be in public. A 
private briefing. Why? Why don't you do it publicly? Dr. Fauci 
has testified 18 times in front of Congress. He has been on 
every news show you can imagine more than once. You can't go a 
day without seeing him on TV. But now the Select Committee on 
Coronavirus won't bring him in for a public hearing to address 
these issues. Nope, it is going to be private.
    As I said earlier, The Washington Post and The Wall Street 
Journal think we should get to the bottom of this. Pretty much 
everyone thinks we should get to the bottom of this, except the 
Democrats on the Select Committee on Coronavirus. So, I hope at 
least the majority will join the minority and say at least give 
us the unredacted emails from this all-important meeting on 
February 1, 2020, where these guys, I believe, got their story 
straight and decided to mislead the American public for over a 
year about the origins of this virus. I hope the majority will 
at least join us for that. I yield back.
    Mr. Clyburn. I thank the gentleman for yielding back. I 
would like to say that, in view of his comments concerning the 
briefing, the private briefing he is talking about, that has to 
do with the members of this committee becoming better informed 
as to the Delta variant. It is not any kind of a testimony. 
That is a briefing.
    Mr. Jordan. I appreciate that, Mr. Chairman, but why not 
make it public? The American would like to be informed as well.
    Mr. Clyburn. Well, we can make a decision after we have 
heard in private whether or not we should make it public, but 
as of this moment, it will be a private briefing.
    With that, I want to thank the witnesses for their 
testimony today. The coronavirus pandemic and the housing 
insecurity that it has caused has only served to illuminate 
that safe and secure housing is essential to building 
prosperous communities, and essential to a strong, sustainable, 
and inclusive recovery. Today's hearing has made it clear that 
while our Nation is still at risk of an eviction crisis, we 
know what we must do to prevent it. The abusive eviction 
practices of corporate landlords must stop. Rather than 
evicting struggling renters from their homes, landlords must 
work with tenants who are experiencing hardship to access 
rental assistant funds.
    I am often amused when I hear people talk about how much it 
costs to get something done, and I very seldom, if ever, hear 
them talk about what will be the costs if we don't do it. 
Homelessness will result from these evictions. What is the cost 
of homelessness both to the families involved and to the 
communities? And we know from recent studies that if people are 
evicted, kicked out of their homes and end up in shelters or on 
the street, they are much more susceptible to the ravages that 
come from COVID-19 than they would be if they were staying in 
their homes.
    It seems to me that all of us have some responsibility for 
getting beyond this pandemic for the people who are in need of 
homes, as well as those people who enormously benefit 
financially from these homes because they aren't giving up 
anything. We just appropriated $46 billion that goes to them. 
It doesn't go to the people in the homes. It goes to these 
landlords who own them, $46 billion. So, I think as state and 
local authorities continue to improve their rental assistance 
programs, they must adopt best practices, like directly aiding 
tenants when their landlords refuse to cooperate with 
assistance programs, and adopt other effective strategies from 
successful programs, such as the Houston-Harris County program 
we have heard about today, the kind of outreach, the kind of 
mapping that is necessary to identify where the real needs are. 
As my great friend and our former colleague, Elijah Cummings, 
would say, this country is better than that.
    Thanks to the efforts of the Biden Administration, access 
to rental assistance is expanding widely. I think I gave the 
numbers: in May, 290,000, as opposed to 160,000 in April. In 
one month, nearly doubled. In one month. So, we are making 
progress on this. The Federal Government must continue to do 
all they can to ensure that all Americans have access to these 
vital programs, and I would hope that this committee will 
continue to do the work that is necessary to make sure, at the 
threat of being too repetitive, to make sure that all of this 
is done efficiently, effectively, and equitably.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the chair, which will be forwarded to the 
witnesses for their response.
    Mr. Clyburn. With that, this hearing is adjourned.
    [Whereupon, at 12:36, the select subcommittee was 
adjourned.]

                                 [all]
</pre></body></html>
